                     CLOSEOUT MEMORANDUM M-97100033


On 9 December 1997, the complainant' brought an alle ation of misconduct in science to OIG's
                                                          F
attention. He alleged that the subject's2 NSF proposal (the funded proposal) included some of
the complainant's ideas (intellectual theft). The complainant explained that after he and the
subject co-authored a           they submitted jointly an NSF proposalS (the joint proposal).
Following the declination of the joint proposal, the subject submitted the funded proposal,
providing the complainant with a copy after he submitted it. The complainant said that two
projects in the funded proposal were his ideas.

Much of the text associated with the first project identified by tge complainant in the subject's
funded proposal as his idea was copied from the co-authored paper. In addition, the first project
included plans for additional research not described in the joint proposal. Finally, as part of the
background discussion for the first project in the funded proposal, the subject identified the
complainant as a previous collaborator on the project.
                                                                       I1
Much of the text describing the second project identified by the complainant in the subject's
funded proposal as his idea was copied from the joint proposal. The complainant told us that the
subject had initiated the second project, but that some of the approaches proposed in the subject's
funded proposal had been the complainant's ideas. Again, the subject listed the complainant as a
previous collaborator on the project in the funded proposal.        11


The subject, as a co-author on the paper and as a co-PI on the joint proposal, had the right to use
the jointly authored information without permission. Although the subject could have been more
collegial by informing the complainant that he planned to submit some of their joint projects in
his funded proposal, his use of jointly authored text and ideas'could not constitute a serious
deviation from accepted practice.                                  /I




This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                                                  li
                                     Footnotes Redacted




                                           Page 1 of 1            *i                  M97-33
